                                                                                                                                    -
                         I


    =   .           I
I
                                              t                                          i
                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

    Case Number: 1-03050018                                                                           Page 1 of 1


                    1
                On 30 April 2003, OIG received a complaint regarding misuse of travel funds by a Division
                ~irector'. During the summer of 2002, the Division Director allegedly traveled on several
                occasions to his home institution2to perform independent research and was reimbursed travel
                expenses that were unallowable. Under the NSFIIntergovernrnental Personnel Act (IPA) travel
                regulations in place at the time, P A ' s were not entitled to be reimbursed for lodging, meals, or
                incidentals when traveling to their home institution for Independent Research/Development
                (IRD). -TheDivision Director was hired as an IPA.                                                     E C   i   -


                OIG evaluated all of the Division Director's travel reimbursements for compliance with the NSF
                travel regulations for IPA travel. OIG discovered one travel reimbursement for which the
                Division Director was reimbursed for unallowable expenses. The Division Director was
                interviewed to ascertain whether he received the reimbursement.

                AAer reviewing the NSF financial database and interoffice records, OIG concluded that the
                Division Director was inadvertently reimbursed for unallowable travel expenses in the amount of
                $395.48. OIG notified the Division Director and a check was issued to the National Science
                Foundation for $395.48. Since the Division Director was unaware that he had been improperly
                reimbursed, OIG could not find any intent to defraud the federal government. Accordingly, this
                case is closed.
                                                       i




                I
                I



                I




                ' redacted
                    redacted
            I




NSF OIG Form 2 (1 1/02)
